STATE OF INDIANA

OFFICE OF TilE ArTOJ\NEY GENEI\AL

CtmTIS T. HtLL, Jn.

302 \VEsT WASliiNGTON STREET, IGCS 5TH Fwon
INDIANAI'OLIS, INDIANA 46204

ArronNEY GENEI\AL

August 28, 2019

Scott Harris, Clerk
Supreme Court of the United States
One First Street, N.E.
Washington, D.C. 20543
Re:

Patterson v. Indiana Family & Social Services Administration, No. 19-181

Dear Mr. Harris,
As counsel of record in the above-referenced case, I am responsible for
preparing a response to the petition for writ of certiorari, currently due September 9,
2019. I am writing to request an additional 30 days, to October 9, 2019, to complete
and file that brief. This is Respondent's first request for an extension in this case.
Petitioner's counsel of record, Dennis Kay Frick, has informed me that Petitioner does
not object to this request.
Even giving this matter priority, counsel for Respondent will be unable to
prepare a satisfactory response to the petition by the current date owing to
obligations in other cases in this Court, the Seventh Circuit Court of Appeals, the
Southern District of Indiana, and the Indiana Supreme Court. An enlargement of
time of 30 days is reasonably necessary for Respondent to prepare an adequate
response.
Thank you for your consideration.

Thomas M. Fisher
Solicitor General of Indiana
Counsel of Record for Respondent
cc: Dennis Kay Frick

TELEPHONE

(3J7) 2.')2.62()1-

FAX

(317) 232-7!J7!J

